  United States Department of State
       Office of Inspector General




            Executive Summary

Government Information Security Reform Act
           FY 2002 Submission

            September 16, 2002
                                               UNCLASSIFIED

EXECUTIVE SUMMARY
PURPOSE
       In response to the Government Information Security Reform Act (GISRA),1 the Office of
Inspector General (OIG) performed an independent evaluation of the information security
program and practices of the Department of State (Department). This executive summary
provides the results of OIG’s evaluation in two parts. Part I summarizes the results of OIG’s
review of the Department’s information security program. Part II contains OIG’s assessment of
the Department’s information security program using performance measures provided by the
Office of Management and Budget (OMB).

PART I
Results of OIG’s Information Security Program Evaluation (Report IT-A-02-06)

        OIG’s evaluation of the effectiveness of the Department’s information security program
found several key areas of security that still require management attention. Specifically, OIG
concluded that the Department has made slow progress in addressing information security
weaknesses identified in OIG’s September 2001 GISRA report.2 In response to the report, the
Department developed a strategy to address a key deficiency: the lack of certification and
accreditation of its information systems. However, the Department has not developed a
timetable for certification and accreditation of all systems, and as of August 2002, only four
percent of its systems had been certified and accredited. Further, according to OIG’s survey
questionnaire, although 72 percent of the Department’s 358 systems are reported to have
security-level determinations, only 15 percent are reported to have security plans.

        In addition, in FY 2002, OIG reported on information security vulnerabilities through its
reviews of key information management programs. For example, in its February 2002 report3 on
the Classified Connectivity Program (CCP), a project to implement classified processing
capability at overseas missions, OIG reported that the Department has not developed a definitive
strategy for managing the security risks of its CCP deployments. Specifically, OIG reported that
the Department had not completed the steps needed to certify and accredit the classified
Windows NT LAN in accordance with federal requirements.

        Finally, at overseas missions, OIG found significant weaknesses in information security
management. Specifically, OIG determined that the information systems security officers
(ISSO) generally were not performing all the requisite duties of the position. In addition, none of
the 11 missions that OIG visited had developed information systems security plans. Further,
OIG found deficiencies in management, technical and operational controls, thus increasing the
risk to mission operations.




1
  Public Law No. 106-398, Div. A, Title X, Subtitle G., 114 Stat. 1654A (2000), 44 U.S.C. 3531 et seq.
2
  Senior Management Attention Needed to Ensure Effective Implementation of the Government Information Security
Reform Act (Report Number 01-IT-M-082, September 2001).
3
  Classified Connectivity Program: Progress and Challenges (Report Number IT-A-02-01, February 2002).
                                             UNCLASSIFIED                                                        2
                                                UNCLASSIFIED

  Part II
  OIG Assessment of the Department’s Information Security Program Based on OMB
  Performance Measures


A. General Overview
  1. Not Applicable

  2. Identify and describe as necessary the total number of programs and systems in the agency, the total
  number of systems and programs reviewed by the program officials, CIOs, or IGs in both last year’s
  report (FY01) and this year’s report (FY02) according to the format provided below. Agencies should
  specify whether they used the NIST self-assessment guide or an agency developed methodology. If the
  latter was used, confirm that all elements of the NIST guide were addressed.


                      TABLE A.1:    DEPARTMENT OF STATE PROGRAMS AND SYSTEMS

                                                                                           FY 2001      FY 2002
     2a     Total number of agency programs.                                                 NA           211
     2b     Total number of agency systems reported to OIG in its Department survey.         370          358
     2c     Total number of programs reviewed by OIG.                                         0            12
     2d     Total number of systems reviewed by OIG.                                         16            9
          Note: Line 2a is the sum of those missions with MPP reporting requirements [181] + Bureaus [27] +
          Financial Service Centers [3].

  OIG developed two data collection surveys to obtain general information about the Department’s
  information security program. The first survey determined the Department’s universe of
  systems. The second survey highlighted five of the Department’s major information systems.
  OIG selected these systems according to their importance to the Department in the areas of
  human resources, inventory management, financial management, public diplomacy, and
  classified information processing.

  The questions pertained to management and operational controls. More specifically, the
  questions focused on security control reviews, personnel security, contingency planning, data
  integrity, security awareness, training, education, and incident response capabilities. The
  questions in the surveys came directly from the National Institute of Standards and Technology
  (NIST) self-assessment guide, which OIG edited to cover risk and vulnerability assessments,
  security controls, life cycle, certification and accreditation, information system security plans,
  personnel security, contingency plans, data integrity, documentation, and incident response
  capability.

  OIG did not independently verify the information collected from the first survey, but did
  selectively verify key information from responses to the second survey. Additionally, OIG
  conducted independent audit and inspection work on 12 Department programs and four other
  systems, again relying on the NIST self-assessment guide.


                                             UNCLASSIFIED                                                     3
                                                       UNCLASSIFIED
   3. Identify all material weakness in policies, procedures, or practices as identified and required to be
   reported under existing law. (Section 3534(c)(1)-(2) of the Security Act.) Identify the number of
   reported material weaknesses for FY 01 and FY 02, and the number of repeat weaknesses in FY02.


                          TABLE A.2:     DEPARTMENT OF STATE MATERIAL WEAKNESSES

                                                                                       FY 2001    FY 2002
       3a     Number of material weaknesses reported.                                     4          3
       3b     Number of material weaknesses repeated in FY 2002.                         NA          3

   In FY 2001, the Department had four material weaknesses on its books. Three of these were
   reported under the Federal Managers Financial Integrity Act (FMFIA),4 as follows:

            • inadequate administrative staffing overseas;
            • integration of grants tracking system; and
            • exchange visitor information system.

   The Department’s fourth material weakness for FY 2001 was: “information systems security for
   networks in domestic operations.” This weakness was brought to the Department’s attention in a
   U.S. General Accounting Office (GAO) review, and it was cited in OIG’s audit of the
   Department’s financial statements under the Federal Financial Management Improvement Act of
   1996.5 Although the weakness was closed for FMFIA purposes as GAO closed out the
   recommendations pertaining to it, it is still considered a material weakness for financial
   statement purposes and is reported in the Department’s FY 2001 Accountability Report.

   On June 27, 2002, the Department’s Management Control Steering Committee voted to close the
   material weakness concerning “inadequate administrative staffing overseas,” and it will not be
   reported in the FMFIA report for FY 2002. The Committee added the other two material
   weaknesses from last year to the agenda for consideration on closing at the next Management
   Control Steering Committee meeting, scheduled for September 2002.


B. Responsibilities of Agency Head
   1. Identify and describe any specific steps taken by the agency head to clearly and unambiguously set
   forth the Security Act’s responsibilities and authorities for the agency CIO and program officials.
   Specifically how are such steps implemented and enforced? Can a major operating component of the
   agency make an IT investment decision without review by and concurrence of the agency CIO?

   In August 2001, the Department took the following key steps:

          •    The Deputy Secretary issued a Delegation of Authority to the CIO, empowering him to
               administer the Department’s information security program.


   4
       Public Law No. 97-255, 96 Stat. 814 (1982).
   5
       Public Law No. 104-208, Div. A, Title I, 110 Stat. 3009-389 (1996).

                                                    UNCLASSIFIED                                              4
                                         UNCLASSIFIED

   •   The CIO designated the deputy assistant secretary for countermeasures and information
       security as the senior agency information security officer. This officer reports directly to
       the CIO regarding the implementation and maintenance of the Department’s information
       security program and security policies.
   •   The Under Secretary for Management designated the CIO as the designated approving
       authority (DAA), responsible for making risk acceptance determinations for information
       technology on behalf of the Department. Based on mission criticality, the DAA may
       accept risk and grant either an approval to operate or an interim approval to operate if the
       system does not meet requirements.
   •   The Under Secretary for Management also agreed to several changes in the respective
       roles and responsibilities of the Bureaus of Diplomatic Security (DS) and Information
       Resource Management (IRM) over information security. For example, DS is responsible
       for developing and recommending computer security policies, while the CIO, who is
       under IRM, has final review and approval authority for such policies.

Concerning the enforcement of GISRA responsibilities and authorities, 5 FAM 619 requires that
Department systems undergo certification and accreditation evaluation by DS before
implementation. Further, the directive states that project managers should estimate the cost of
incorporating each safeguard or countermeasure into a system.

The Department has established information technology (IT) review boards to evaluate and
approve certain projects. According to the Foreign Affairs Handbook (5 FAH-5 H-116), boards
determine if projects will benefit the mission of the Department as outlined in the Department’s
Strategic Plan. Specifically, the Information Technology Program Board reviews projects with a
life cycle cost of $30 million or more, or those determined by the Under Secretary for
Management to be of critical importance to the mission. Further, the Management Review
Advisory Group and the Technical Review Advisory Group evaluate projects with life cycle
values of less than $30 million. Generally, department bureaus and overseas missions can make
routine IT investment decisions (less than $100,000) without review by and concurrence of the
CIO.

As part of its IT Capital Planning Process, the Department requires bureaus to submit budget
information on all IT projects, regardless of funding source, into the IT Investment Portfolio
System (I-TIPS). For FY 2004, bureaus were required to submit project information by June 7,
2002, in order to be considered for inclusion in the Department’s budget request.


2. How does the head of the agency ensure that the agency’s information security program is practiced
throughout the life cycle of each agency system? During the reporting period, did the agency head
take any specific and direct actions to oversee the performance of 1) agency program officials and 2)
the CIO to verify that such officials are ensuring that security plans are up-to-date and practiced
throughout the life cycle of each system?

In December 2001, OMB notified the Department that it had disapproved its security program,
largely on the basis of the Department’s GISRA report and the serious issues found, and its own
reviews of security integration in the capital planning process.



                                       UNCLASSIFIED                                                5
                                           UNCLASSIFIED

In response, in March 2002, the Under Secretary for Management directed DS and IRM to
develop a plan to address incomplete planning and certification and accreditation of individual
systems. Specifically, the Under Secretary directed DS and IRM to develop plans to:

    •   implement fully the National Information Assurance Certification and Accreditation
        Process (NIACAP) in the Department. The plan must include performance-based,
        competitive sourcing options, and budget impact statements for all options presented.
    •   eliminate quickly and efficiently the current systems certification and accreditation
        backlog. This plan must also include performance-based, competitive sourcing options,
        and budget impact statements for all options presented.

In July 2002, the Under Secretary for Management approved a proposal by DS and IRM to
implement NIACAP across the Department, including quick and efficient certification and
accreditation of all Department systems, networks, applications, domains, and sites. The plan
identifies five major issue areas (education, documentation, applications, sites, and remediation)
that need to be addressed in order to implement NIACAP.


3. How has the agency integrated its information and information technology security program with
its critical infrastructure protection responsibilities, and other security programs (e.g., continuity of
operations, and physical and operational security)? (Sections 3534 (a)(1)(B) and (b)(1) of the Security
Act.) Does the agency have separate staffs devoted to other security programs, are such programs
under the authority of different agency officials, if so what specific efforts have been taken by the
agency head or other officials to eliminate unnecessary duplication of overhead costs and ensure that
policies and procedures are consistent and complimentary across the various programs and
disciplines?

Generally, the Department has not integrated its information technology security program with
its critical infrastructure protection (CIP) responsibilities and other security programs. It has,
however, taken a number of steps to strengthen its approach to CIP. Specifically, in February
2002, the Under Secretary for Management decided to:

    •   establish a formal Department-wide CIP program that will be managed and resource-
        loaded over a multiyear planning period that is aligned with the Department’s budget and
        planning process to achieve CIP objectives for domestic and overseas operations; and
    •   assign lead responsibility for formulation and execution of the Department-wide CIP
        program to the Assistant Secretary for Resource Management.

In April 2002, the Assistant Secretary for Resource Management established the Tier One
Governance Board, which is comprised of senior managers who are responsible for the
Department’s infrastructure. The board is supposed to facilitate the decision-making process on
policy and priorities related to CIP objectives.

Finally, the Department has a wide variety of security programs at its bureaus and overseas
missions operating under the authority of different agency officials. Thus far, there have been no
specific efforts taken by the agency head or other officials to eliminate unnecessary duplication
of overhead costs and ensure that policies and procedures are consistent and complementary
across the various programs and disciplines.

                                         UNCLASSIFIED                                                  6
                                               UNCLASSIFIED
4. Has the agency undergone a Project Matrix review? If so, describe the steps the agency has taken
as a result of the review. If no, describe how the agency identifies its critical operations and assets,
their interdependencies and interrelationships, and how they secure those operations and assets.

The Department has not undergone a Project Matrix review. In December 2001, the
Department’s Critical Infrastructure Protection Governance Board agreed to participate in
Project Matrix. Because of limitations on the collection, processing, and controlling of classified
and highly sensitive information, the Department’s participation has been limited to that of
providing unclassified materials. At this time, the Department is developing its approach to
identifying its critical operations and assets, their interdependencies and interrelationships, and
how they secure those operations and assets.


5. How does the agency head ensure that the agency, including all components, has documented
procedures for reporting security incidents and sharing information regarding common
vulnerabilities? Identify and describe the procedures for external reporting to law enforcement
authorities and to the General Services Administration’s Federal Computer Incident Response Center
(FedCIRC). Identify actual performance according to the measures and the number of incidents
reported in the format provided below. (Section 3534(b)(2)(F)(i)-(iii) of the Security Act.)


                              TABLE B.1:   RESPONSIBILITIES OF AGENCY HEAD

        Total number of agency components including bureaus, field activities (functional
 5a                                                                                               344
        areas and worldwide transmitting sites).
 5b     Number of agency components with incident handling and response capability.              344
 5c     Number of agency components that report to FedCIRC.                                  1 (DS CIRT)
        Does the agency and its major components share incident information with
 5d                                                                                               Yes
        FedCIRC in a timely manner consistent with FedCIRC and OMB guidance?
        What is the required average time to report to the agency and FedCIRC following     Varies case-by-
 5e
        an incident?                                                                             case
                                                                                            Engineering a
        How does the agency, including the programs within major components, confirm
 5f                                                                                         comprehensive
        that patches have been tested and installed in a timely manner?
                                                                                               process
                                                                             FY 2001           FY 2002
        By agency and individual component, number of incidents
                                                                                            As of July 1:
        (e.g., successful and unsuccessful network penetrations, root or    1,441 CIRT
                                                                                                1,085
 5g     user account compromises, denial of service attacks, website
                                                                                            As of July 30:
        defacing attacks, malicious code and virus, probes and scans,      239,272 VIRT
                                                                                              181,180
        password access) reported by each component.
        By agency and individual component, number of incidents
 5h                                                                            118          As of July 1: 70
        reported externally to FedCIRC or law enforcement.
      Note 1: CIRT is Computer Incident Response Team
      Note 2: VIRT is Virus Incident Response Team
      Note 3: FedCIRC is Federal Computer Incident Response Capability

OIG did not evaluate the Department’s incident handling policy and procedures. This area of
interest will be included in OIG’s work for FY 2003 under the proposed Federal Information
Security Management Act. The information shown in Table B.1 was provided by the CIO and
has not been verified.

                                             UNCLASSIFIED                                                      7
                                                     UNCLASSIFIED

C. Responsibilities of Agency Program Officials
     1. Have agency program officials: 1) assessed the risk to operations and assets under their control;
     2) determined the level of security appropriate to protect such operations and assets; 3) maintained an
     up-to-date security plan (that is practiced throughout the life cycle) for each system supporting the
     operations and assets under their control; and 4) tested and evaluated security controls and
     techniques? (Section 3534(a)(2) of the Security Act.)

     According to OIG’s survey results, the Department identified 358 systems and applications in
     FY 2002 (compared with 370 in FY 2001). Generally, OIG’s survey indicates that there is
     significant room for improvement. As Table C.1 shows, bureaus reported in FY 2002 that 72
     percent of their systems had security-level determinations. However, bureaus also reported in
     FY 2002 that only four percent of their systems are certified and accredited, and only 15 percent
     of systems have security plans. The tables below provide the survey results for the Department
     as a whole, and for each bureau.


                                TABLE C.1: DEPARTMENT OF STATE –               AGENCY TOTALS

                                                                                    FY 2001                  FY 2002
                                                                                 Number Percent           Number Percent
     Total systems and major applications reported to OIG in its
                                                                                    370                      358
     Department survey
1a   Systems that have been assessed for risk                                       219          59          201            56
1b   Systems that have been assigned a security level determination                 256          69          257            72
1c   Systems that have an up-to-date security plan                                  38           10           53            15
     Systems that have been authorized for processing following
1d                                                                                  18            5          16             4
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                                  352          95          342            96
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                                  162          44          164            46
     in the last year
     Note: Section C, questions 1f (cost of security controls), 1h (contingency plan), and 1i (contingency plan tested in
     last year) were not addressed in the OIG survey.




                                                   UNCLASSIFIED                                                             8
                                                    UNCLASSIFIED


                                       TABLE C.2:   BUREAU OF ADMINISTRATION

                                                                                 FY 2001                 FY 2002
                                                                              Number Percent          Number Percent
     Total systems and major applications reported to OIG in its
                                                                                  55                      28
     Department survey
1a   Systems that have been assessed for risk                                      8          15          7              25
1b   Systems that have been assigned a security level determination               39          71          8              29
1c   Systems that have an up-to-date security plan                                5           9           6              21
     Systems that have been authorized for processing following
1d                                                                                4           7           5              18
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                                51          93          23             82
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                                4           7           3              11
     in the last year
     Note: The 55 systems shown for the Bureau of Administration are the total reported before May 15, 2001, when the
     Office of Foreign Buildings Operations (FBO) was still part of the bureau. After that date, FBO became a separate
     Bureau of Overseas Buildings Operations, reporting directly to the Under Secretary for Management.



                                      TABLE C.3:   BUREAU OF CONSULAR AFFAIRS

                                                                                 FY 2001                 FY 2002
                                                                              Number Percent          Number Percent
     Total systems and major applications reported to OIG in its
                                                                                  36                      36
     Department survey
1a   Systems that have been assessed for risk                                     23          64          25             69
1b   Systems that have been assigned a security level determination                8          22          17             47
1c   Systems that have an up-to-date security plan                                0           0           15             42
1d   Systems that have been authorized for processing following
                                                                                  2           6           4              11
     certification and accreditation
1e   Systems that are operating without written authorization (including
                                                                                  34          94          32             89
     the absence of certification and accreditation)
1g   Systems for which security controls have been tested and evaluated
                                                                                  1           3           17             47
     in the last year




                                                 UNCLASSIFIED                                                        9
                                                    UNCLASSIFIED


                                    TABLE C.4:   BUREAU OF DIPLOMATIC SECURITY

                                                                                  FY 2001                 FY 2002
                                                                               Number Percent          Number Percent
     Total systems and major applications reported to OIG in its
                                                                                  51                       46
     Department survey
1a   Systems that have been assessed for risk                                     46           90          46          100
1b   Systems that have been assigned a security level determination               47           92          46          100
1c   Systems that have an up-to-date security plan                                0            0           0            0
     Systems that have been authorized for processing following
1d                                                                                 1           2           0            0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                                50           98          46          100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                                46           90          46          100
     in the last year


                TABLE C.5:   BUREAU OF DIPLOMATIC SECURITY, OFFICE OF FOREIGN MISSIONS

                                                                                  FY 2001                 FY 2002
                                                                               Number Percent          Number Percent
     Total systems and major applications reported to OIG in its
                                                                               See Note                    4
     Department survey
1a   Systems that have been assessed for risk                                                              0             0
1b   Systems that have been assigned a security level determination                                        1            25
1c   Systems that have an up-to-date security plan                                                         1            25
     Systems that have been authorized for processing following
1d                                                                                                         0            0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                                                         4           100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                                                         0            0
     in the last year
     Note: In FY 2001, the Office of Foreign Missions’ data were rolled into the Bureau of Diplomatic Security data.


                             TABLE C.6:    BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS

                                                                                  FY 2001                 FY 2002
                                                                               Number Percent          Number Percent
     Total systems and major applications reported to OIG in its
                                                                                   1                       1
     Department survey
1a   Systems that have been assessed for risk                                      0           0           0            0
1b   Systems that have been assigned a security level determination                0           0           1           100
1c   Systems that have an up-to-date security plan                                 0           0           0            0
     Systems that have been authorized for processing following
1d                                                                                 1          100          0            0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                                 0           0           1           100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                                 0           0           1           100
     in the last year

                                                  UNCLASSIFIED                                                         10
                                                    UNCLASSIFIED


                          TABLE C.7:   BUREAU OF EDUCATIONAL AND CULTURAL AFFAIRS

                                                                                  FY 2001                 FY 2002
                                                                               Number Percent          Number Percent
     Total systems and major applications reported to OIG in its
                                                                                  40                       38
     Department survey
1a   Systems that have been assessed for risk                                     30          75           23       61
1b   Systems that have been assigned a security level determination               32          80           38       100
1c   Systems that have an up-to-date security plan                                12          30           11        29
     Systems that have been authorized for processing following
1d                                                                                 0           0           0         0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                                40          100          38       100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                                 0           0           0         0
     in the last year
     Note: The Bureau of Educational and Cultural Affairs response also includes the Coordinator of International
     Information Programs office.



                                       TABLE C.8:   BUREAU OF EUROPEAN AFFAIRS

                                                                                  FY 2001                 FY 2002
                                                                               Number Percent          Number Percent
     Total systems and major applications reported to OIG in its
                                                                                   5                       5
     Department survey
1a   Systems that have been assessed for risk                                      0           0           0         0
1b   Systems that have been assigned a security level determination                0           0           0         0
1c   Systems that have an up-to-date security plan                                 0           0           0         0
     Systems that have been authorized for processing following
1d                                                                                 0           0           0         0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                                 5          100          5        100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                                 0           0           0         0
     in the last year




                                                  UNCLASSIFIED                                                      11
                                                   UNCLASSIFIED


                                      TABLE C.9:   FOREIGN SERVICE INSTITUTE

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             2                2
     Department survey
1a   Systems that have been assessed for risk                                0       0        1       50
1b   Systems that have been assigned a security level determination          2      100       2      100
1c   Systems that have an up-to-date security plan                           0       0        1      50
     Systems that have been authorized for processing following
1d                                                                           0       0        0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           2      100       2      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           2      100       0       0
     in the last year


                                    TABLE C.10:    BUREAU OF HUMAN RESOURCES

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             20               20
     Department survey
1a   Systems that have been assessed for risk                                 4      20       3       15
1b   Systems that have been assigned a security level determination          18      90       18      90
1c   Systems that have an up-to-date security plan                           6       30       6       30
     Systems that have been authorized for processing following
1d                                                                           1       5        2       10
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           19      95       18      90
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           19      95       19      95
     in the last year


                       TABLE C.11:   BUREAU OF INFORMATION RESOURCE MANAGEMENT

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             29               29
     Department survey
1a   Systems that have been assessed for risk                                12      41       11      38
1b   Systems that have been assigned a security level determination          11      38       11      38
1c   Systems that have an up-to-date security plan                           7       24       8       28
     Systems that have been authorized for processing following
1d                                                                           3       10       2       7
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           26      90       27      93
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           2       7        3       10
     in the last year


                                                UNCLASSIFIED                                         12
                                                  UNCLASSIFIED


                                   TABLE C.12:   OFFICE OF INSPECTOR GENERAL

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             6                8
     Department survey
1a   Systems that have been assessed for risk                                5      83        5       63
1b   Systems that have been assigned a security level determination          6      100       6       75
1c   Systems that have an up-to-date security plan                           0       0        0       0
     Systems that have been authorized for processing following
1d                                                                           0       0        0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           6      100       8      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           6      100       6       75
     in the last year


                             TABLE C.13:   BUREAU OF INTELLIGENCE AND RESEARCH

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             3                3
     Department survey
1a   Systems that have been assessed for risk                                2      67        2      67
1b   Systems that have been assigned a security level determination          3      100       3      100
1c   Systems that have an up-to-date security plan                           2      67        2      67
     Systems that have been authorized for processing following
1d                                                                           1       33       1       33
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           2       67       2       67
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           1       33       1       33
     in the last year


          TABLE C.14:   BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             1                1
     Department survey
1a   Systems that have been assessed for risk                                1      100       1      100
1b   Systems that have been assigned a security level determination          1      100       1      100
1c   Systems that have an up-to-date security plan                           1      100       1      100
     Systems that have been authorized for processing following
1d                                                                           1      100       0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           0       0        1      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           1      100       1      100
     in the last year


                                                UNCLASSIFIED                                         13
                                                  UNCLASSIFIED


                     TABLE C.15:   BUREAU OF INTERNATIONAL ORGANIZATIONAL AFFAIRS

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             2                2
     Department survey
1a   Systems that have been assessed for risk                                2      100       2      100
1b   Systems that have been assigned a security level determination          2      100       2      100
1c   Systems that have an up-to-date security plan                           0       0        0       0
     Systems that have been authorized for processing following
1d                                                                           0       0        0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           2      100       2      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           0       0        0       0
     in the last year


                                    TABLE C.16:   OFFICE OF THE LEGAL ADVISER

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             5                5
     Department survey
1a   Systems that have been assessed for risk                                0       0        0       0
1b   Systems that have been assigned a security level determination          0       0        0       0
1c   Systems that have an up-to-date security plan                           0       0        0       0
     Systems that have been authorized for processing following
1d                                                                           0       0        0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           5      100       5      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           0       0        0       0
     in the last year


                                    TABLE C.17:   OFFICE OF MEDICAL SERVICES

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             3                3
     Department survey
1a   Systems that have been assessed for risk                                3      100       2      67
1b   Systems that have been assigned a security level determination          3      100       3      100
1c   Systems that have an up-to-date security plan                           3      100       0       0
     Systems that have been authorized for processing following
1d                                                                           3      100       0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           0       0        3      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           3      100       2       67
     in the last year


                                                UNCLASSIFIED                                         14
                                                  UNCLASSIFIED


                                   TABLE C.18:   BUREAU OF NONPROLIFERATION

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             2                2
     Department survey
1a   Systems that have been assessed for risk                                0       0        0       0
1b   Systems that have been assigned a security level determination          2      100       2      100
1c   Systems that have an up-to-date security plan                           0       0        0       0
     Systems that have been authorized for processing following
1d                                                                           0       0        0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           2      100       2      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           0       0        0       0
     in the last year


     TABLE C.19:   BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC AFFAIRS

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             5                5
     Department survey
1a   Systems that have been assessed for risk                                5      100       5      100
1b   Systems that have been assigned a security level determination          5      100       5      100
1c   Systems that have an up-to-date security plan                           0       0        0       0
     Systems that have been authorized for processing following
1d                                                                           0       0        0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           5      100       5      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           0       0        0       0
     in the last year




                                                UNCLASSIFIED                                         15
                                                    UNCLASSIFIED


                                   TABLE C.20:    OVERSEAS BUILDINGS OPERATIONS

                                                                                 FY 2001                 FY 2002
                                                                              Number Percent          Number Percent
     Total systems and major applications reported to OIG in its
                                                                              See Note                    29
     Department survey
1a   Systems that have been assessed for risk                                                              1          3
1b   Systems that have been assigned a security level determination                                       29         100
1c   Systems that have an up-to-date security plan                                                         0          0
     Systems that have been authorized for processing following
1d                                                                                                        0              0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                                                        29         100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                                                        0              0
     in the last year
     Note: The 55 systems shown for the Bureau of Administration are the total reported before May 15, 2001, when the
     Office of Foreign Buildings Operations (FBO) was still part of the bureau. After that date, FBO became a separate
     Overseas Buildings Operations, reporting directly to the Under Secretary for Management.



                       TABLE C.21:    BUREAU OF POPULATION, REFUGEES, AND MIGRATION

                                                                                 FY 2001                 FY 2002
                                                                              Number Percent          Number Percent
      Total systems and major applications reported to OIG in its
                                                                                  2                       2
      Department survey
1a    Systems that have been assessed for risk                                    0           0           0              0
1b    Systems that have been assigned a security level determination              0           0           0              0
1c    Systems that have an up-to-date security plan                               0           0           0              0
      Systems that have been authorized for processing following
1d                                                                                0           0           0              0
      certification and accreditation
      Systems that are operating without written authorization (including
1e                                                                                2          100          2          100
      the absence of certification and accreditation)
      Systems for which security controls have been tested and evaluated
1g                                                                                0           0           0              0
      in the last year




                                                 UNCLASSIFIED                                                       16
                                                  UNCLASSIFIED


                                      TABLE C.22:   BUREAU OF PUBLIC AFFAIRS

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             5                5
     Department survey
1a   Systems that have been assessed for risk                                1       20       1       20
1b   Systems that have been assigned a security level determination          1       20       1       20
1c   Systems that have an up-to-date security plan                           0       0        0       0
     Systems that have been authorized for processing following
1d                                                                           0       0        0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           5      100       5      100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           0       0        0       0
     in the last year


                                TABLE C.23:   BUREAU OF RESOURCE MANAGEMENT

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             22               23
     Department survey
1a   Systems that have been assessed for risk                                2       9        5       22
1b   Systems that have been assigned a security level determination          1       5        2       9
1c   Systems that have an up-to-date security plan                           2       9        2       9
     Systems that have been authorized for processing following
1d                                                                           1       5        2       9
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           21      95       21      91
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           3       14       5       22
     in the last year


                                      TABLE C.24:   OFFICE OF THE SECRETARY

                                                                              FY 2001          FY 2002
                                                                           Number Percent   Number Percent
     Total systems and major applications reported to OIG in its
                                                                             75               61
     Department survey
1a   Systems that have been assessed for risk                                75     100       61     100
1b   Systems that have been assigned a security level determination          75     100       61     100
1c   Systems that have an up-to-date security plan                           0       0        0       0
     Systems that have been authorized for processing following
1d                                                                           0       0        0       0
     certification and accreditation
     Systems that are operating without written authorization (including
1e                                                                           75     100       61     100
     the absence of certification and accreditation)
     Systems for which security controls have been tested and evaluated
1g                                                                           74      99       60      98
     in the last year


                                                UNCLASSIFIED                                         17
                                                  UNCLASSIFIED
   2. For operations and assets under their control, have agency program officials used appropriate
   methods (e.g., audits or inspections) to ensure that contractor provided services (e.g., network or
   website operations) or services provided by another agency for their program and systems are
   adequately secure and meet the requirements of the Security Act, OMB policy and NIST guidance,
   national security policy, and agency policy? Identify actual performance according to the measures
   and in the format provided below. (Sections 3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of the
   Security Act.)

   OIG did not evaluate the Department or program officials’ handling of contractor or other
   agency information services provided to the Department. This area of interest will be included in
   the OIG’s work for FY 2003 under the proposed Federal Information Security Management Act.


D. Responsibilities of Agency Chief Information Officers
   1. Has the agency CIO: 1) adequately maintained an agency-wide security program; 2) ensured
   the effective implementation of the program and evaluated the performance of major agency
   components; and 3) ensured the training of agency employees with significant security
   responsibilities? Identify actual performance according to the measures and in the format provided
   below. (Section 3534(a)(3)-(5)) and (Section 3534(a)(3)(D), (a)(4), (b)(2)(C)(i)-(ii) of the Security Act.)


                  TABLE D.1:   RESPONSIBILITIES OF AGENCY CHIEF INFORMATION OFFICERS

                                                                                    FY 2001       FY 2002
           Other than GAO or IG audits and reviews, how many agency
    1a                                                                                N/A        161 IV&V
           components and field activities received security reviews?
           What percentage of components and field activities have had such
    1b                                                                                N/A         unknown
           reviews?
    1c     Number of agency employees including contractors.                         25,604        31,975
           Number and percentage of agency employees including contractors
                                                                                                   16,365
    1d     that received security training. (1-hour security training for OpenNet     N/A
                                                                                                    51%
           Plus users)
    1e     Number of employees with significant security responsibilities             N/A         unknown
           Number of employees with significant security responsibilities that
    1f                                                                                325          2,800
           received specialized training.
    1g     Briefly describe what types of security training were available.         narrative     narrative
           Do agency POA&Ms account for all known agency security
                                                                                                    No -
    1i     weaknesses including of all components and field activities? If no,        N/A
                                                                                                  narrative
           why not?
    1j     Has the CIO appointed a senior agency information security official?       Yes           Yes
         Note 1: POA&Ms are plans of action and milestones reports

   1) Adequately maintained an agency-wide security program.

   The CIO has not adequately maintained an agency-wide security program, in part because all the
   elements of such a program are not in place, or have not been implemented. First, as OIG states
   in its evaluation report, the Systems Security Program Plan (SSPP), which provides an overview
   of the Department’s management approach to information security, was not revised to address
   the requirements resulting from GISRA’s enactment and does not reflect changes and
   delegations of authority made within the Department to meet GISRA requirements.
                                          UNCLASSIFIED                                           18
                                             UNCLASSIFIED

The Department is currently revising the SSPP so that it is consistent with GISRA.

Second, a critical element of the SSPP, certification and accreditation, has not been implemented
across the Department. According to the SSPP, the certification and accreditation process is the
primary vehicle for the implementation of IT risk management for the Department. Further, the
SSPP states that this process is designed to ensure that IT security requirements established by
law and by Department policy are met and followed to ensure that the Department’s information
security posture is not adversely impacted. Toward that end, in July 2002, the Under Secretary
for Management approved a strategy developed by DS and IRM to implement NIACAP,
including quick and efficient certification and accreditation of all Department systems, networks,
applications, domains, and sites. The strategy identifies five major areas (education,
documentation, applications, sites, and remediation) that need to be addressed. However, as OIG
reported in its FY 2002 GISRA evaluation, the Department has not developed a timetable for
certification and accreditation of all systems, and as of August 2002, only four percent of its
systems had been certified and accredited.

Third, for FY 2002, the Department had not developed and implemented information security
performance measures to support strategic goals. Without meaningful and measurable
performance measures, the Department was not able to implement a results-based information
security management program. To resolve this problem, in August 2002, the CIO issued the
Department’s FY 2003 Information Assurance Performance Measures Plan, and requested that
all bureaus and missions implement procedures for collecting and submitting data in accordance
with the plan. The CIO directed that collection of data should begin no later than October 1,
2002.

To address weaknesses in the Department’s security program, the CIO has approved the
establishment of the Office of Information Assurance (IA). The new directorate reports to the
deputy assistant secretary (deputy chief information officer) and has had a significant number of
resources, both financial and staff, assigned commensurate with its new and increased
responsibilities. The purpose of this office is to plan, manage, and track the Department’s IT
security program in accordance with government mandates. The IA Office supports the DAA
and CIO in accrediting systems and applications that have undergone the certification process.
The IA Office is also responsible for developing the Departmental Information Assurance
Program Plan that acts as an implementation guide for IT security throughout the Department.

2) Ensured the effective implementation of the program and evaluated the performance of
   major agency components.

The CIO has not ensured effective implementation of the security program. As OIG reported in
its evaluation of the Department’s information security program, the CIO is making slow
progress in addressing the information security weaknesses identified in OIG’s September 2001
GISRA report.6 Specifically, OIG reported that there is significant room for improvement in
information security management throughout the Department. For example, although 72 percent
of the Department’s 358 systems were reported to have security level determinations, only 15
percent were reported to have security plans. In addition, OIG reported that information security
deficiencies at overseas missions increase the risk that mission operations could be disrupted.
6
 Senior Management Attention Needed to Ensure Effective Implementation of the Government Information Security
Reform Act (Report Number 01-IT-M-082, Sept. 2001)
                                           UNCLASSIFIED                                                   19
                                                 UNCLASSIFIED

For example, OIG noted that none of the missions visited had developed a mission-wide
information systems security plan. Further, OIG found that because of weaknesses in the
Department’s management, technical, and operational controls, IT systems could be
compromised through a variety of means.

Finally, the CIO has made progress in evaluating the performance of major components. As part
of OpenNet Plus7 implementation, the CIO is assessing information security at missions and
bureaus through the connection approval process. So far, 23 bureaus and about 141 missions
have had independent verification and validation (IV&V) of their respective IT infrastructures,
which measures the extent to which each site complies with the Department’s IT security
configuration. Missions must show that they comply with existing security standards prior to
receiving internet web services from OpenNet Plus.

3) Ensured the training of agency employees with significant security responsibilities.

The Department has made progress in addressing the information security training needs of its
employees. The SSPP identifies 13 roles or functions that have significant security
responsibilities. Each function impacts the design, execution, or evaluation of automated
information systems (AIS) security procedures and practices. Specialized AIS security training
has been developed or is planned for eight of the functions. The eight functions include
Ambassadors and Chiefs of Mission, system owners, information management officers (IMO),
system administrators, information system security officers (ISSO), security engineering officers,
regional security officers (RSO), and regional computer security officers (RCSO).

Under the Automated Information Systems Security Training Program (AISSTP), courses of
instruction vary according to a group’s responsibility, as established by the Department, and last
up to five days. With the exception of RCSOs, for whom the AISSTP office arranges specialized
outside instruction, all classes are developed and presented by DS. Classes are presented
worldwide throughout the year. In FY 2002, a total of 44 classes will have been presented.

Until FY 2002, the ISSO basic course was the only training presented by AISSTP. About 1,100
people have attended this course in the four years it has been presented. Everyone was provided
with the same content regardless of his or her role. The AISSTP recognized that this did not
conform to federal requirements and started the development and delivery of new courses. Two
of them, AIS Security for System Administrators and AIS Security for RSOs, were started in FY
2002. Another course, AIS Security for IMOs, is expected to debut within three months.
AISSTP expects to develop instruction for all of the groups mentioned above. It is anticipated
that 700 people will receive AIS security training in FY 2003.

The Department also conducts computer security awareness training to ensure the
confidentiality, integrity, and availability of its information. Pursuant to this duty, DS’s
customer support branch is responsible for the Computer Security Awareness Program.
Computer security “awareness” is required for all employees because IT security is part of every
employee’s job, and awareness supports individual accountability. Thus, the program is
designed to increase the awareness of all those in the Department who are permitted access to the
systems.

7
    OpenNet Plus is the Department’s program to provide worldwide desktop Internet access to its employees.
                                               UNCLASSIFIED                                                   20
                                            UNCLASSIFIED


4) Do plans of action and milestones reports account for all known security weaknesses.

Not all known security weaknesses are addressed by the Department’s plans of action and
milestones reports. For example, the Department’s July 2002 update does not reflect security
weaknesses identified by OIG in its February 2002 report on the Classified Connectivity
Program. Nor does it address reported weaknesses in the Department’s critical infrastructure
protection program, among others. The Department uses a number of reporting vehicles to
document and provide status of security vulnerabilities including project plans, working group
reports, corrective action reports, corrective action plans, remediation reports, as well as plans of
action and milestones reports. However, corrective action plans and plans of action and
milestones are not currently integrated as a complete and comprehensive, single source for
eliminating known and documented vulnerabilities for programs and systems within the
Department.


2. For operations and assets under their control (e.g., network operations), has the agency CIO used
appropriate methods (e.g., audits or inspections) to ensure that contractor provided services (e.g.,
network or website operations) or services provided by another agency are adequately secure and meet
the requirements of the Security Act, OMB policy and NIST guidance, national security policy, and
agency policy? Identify actual performance according to the measures and in the format provided
below. (Sections 3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of the Security Act.)


          TABLE D.2:   DEPARTMENT OF STATE CONTRACTOR OPERATIONS FACILITIES

                                                                                FY 2001     FY 2002
2a   Number of contractor operations.                                             16          23
2b   Number of contractor operations or facilities reviewed.                       9          16

OIG did not evaluate the Department or CIO’s handling of contractor or other agency
information services provided to the Department. This area of interest will be included in the
OIG’s work for FY 2003 under the proposed Federal Information Security Management Act.
The information shown in Table D.2 was provided by the CIO and has not been verified.




                                          UNCLASSIFIED                                             21
                                             UNCLASSIFIED

3. Has the agency CIO fully integrated security into the agency’s capital planning and investment
control process? Were security requirements and costs reported on every FY03 capital asset plan (as
well as in the exhibit 53) submitted by the agency to OMB? If no, why not? Identify actual
performance according to the measures and in the format provided below. (Sections 3533(a)(1)(A)-(B),
(b)(3)(C)-(D), (b)(6) and 3534(a)(C) of the Security Act.)


              TABLE D.3:    RESPONSIBILITIES OF AGENCY CHIEF INFORMATION OFFICER

                                                                    FY 2003 Budget   FY 2004 Budget
                                                                      Materials        Materials
       Number of capital asset plans and justifications submitted
 3a                                                                      22            In process
       to OMB
       Number of capital asset plans and justifications submitted
 3b                                                                       0            In process
       to OMB without requisite security information and costs?
       Were security costs reported for all agency systems on the
 3c                                                                      Yes           In process
       agency’s exhibit 53?
 3d    Have all discrepancies been corrected?                          Unknown          Unknown
       How many have the CIO/other appropriate official
 3e                                                                      22            In process
       independently validated prior to submittal to OMB?
      Note: 3a - Capital asset plan is under development.

OIG did not evaluate the extent to which the CIO has integrated security fully into the
Department’s capital planning and investment control process. However, as indicated in Table
D.3, for FY 2003, the Department reports that all of its 22 capital asset plans and justifications
were submitted to OMB with the requisite security information and cost. In this process, the
CIO relies on the IT Investment Portfolio System, which provides a detailed breakdown of new
and ongoing projects and initiatives. Starting in FY 2002, a new mandatory section includes
planned and current security and privacy spending.




                                           UNCLASSIFIED                                             22
